No.

In the Supreme Court of the United States
________________________
RODNEY CARLISLE, JR., PETITIONER
v.
COMMONWEALTH OF KENTUCKY, RESPONDENT.
_____________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF KENTUCKY

________________________
PETITION FOR A WRIT OF CERTIORARI
________________________
DAVID A. O’NEIL
COUNSEL OF RECORD
CHRISTOPHER CARTER
DEBEVOISE & PLIMPTON LLP
801 Pennsylvania Ave. N.W.
Washington, D.C. 20004
(202) 383-8000
daoneil@debevoise.com
MATTHEW SPECHT
DEBEVOISE & PLIMPTON LLP
919 Third Avenue
New York, NY 10022

ROY ALYETTE DURHAM II
KENTUCKY DEPARTMENT OF
PUBLIC ADVOCACY
5 Mill Creek Park, Section 100
Frankfort, KY, 40601
(502) 564-8006

i

QUESTION PRESENTED
Whether the Fourth Amendment permits law enforcement to prolong every traffic stop by performing
a criminal history check, or whether the Fourth
Amendment requires a case-by-case approach that
permits such checks when the Government offers
some evidence that the measure actually related to
officer safety.

ii

PARTIES TO THE PROCEEDINGS
All parties appear in the caption of the case on
the cover page.

iii

RELATED PROCEEDINGS
There are no related proceedings to this petition.

iv

TABLE OF CONTENTS
Page
Question Presented ..................................................... i
Table of Authorities....................................................vi
Opinions Below ............................................................1
Jurisdiction ..................................................................1
Statutory Provisions Involved ....................................1
Introduction .................................................................1
Statement ....................................................................4
Reasons for Granting the Writ ...................................7
A.

B.

The Question Presented Concerns an
Intractable, Acknowledged Circuit Split
on a Recurring Question Only This Court
Can Resolve.......................................................8
1.

Five Courts Have Held a Police
Officer Is Entitled to Conduct a
Computerized Criminal History
Check During Every Traffic Stop. .........8

2.

Two Courts Have Held a Police
Officer Is Not Entitled to Conduct
a Computerized Criminal History
Check During a Traffic Stop Unless
There Is Evidence the Check
Advances Officer Safety. ...................... 10

3.

The Conflict Will Not Resolve
without a Decision from This
Court. .................................................... 12

The Decision below Is Wrong. ........................ 13

v

C.

The Decision below Concerns an
Important and Recurring Question. .............. 17

D.

This Case Presents an Ideal Vehicle. ............ 18

Conclusion ................................................................. 20
Appendix A: Kentucky Supreme
Court Decision ...................................................... 1a
Appendix B: Circuit Court Order on Motion to
Reconsider .......................................................... 28a
Appendix C: Circuit Court Order on Motion to
Suppress ............................................................. 29a

vi

TABLE OF AUTHORITIES
CASES
Arizona v. Johnson, 555 U.S. 323 (2009)............... 13
Illinois v. Caballes, 543 U.S. 405 (2005) ............... 15
Rodriguez v. United States, 575 U.S. 348
(2015) ..........................................................passim
State v. Allen
779 S.E.2d 248 (Ga. 2015) .........................passim
State v. Salcedo, 935 N.W.2d 572 (Iowa 2019) ...... 16
Swanigan v. City of Chicago, 881 F.3d 577
(7th Cir. 2018) ............................................... 9, 16
United States v. Clark
902 F.3d 404 (3d Cir. 2018) ............ 12, 13, 15, 16
United States v. Dion, 859 F.3d 114 (1st Cir.
2017) .................................................................. 16
United States v. Evans, 786 F.3d 779 (9th Cir.
2015) .................................................................. 11
United States v. Hill
852 F.3d 377 (4th Cir. 2017) ................. 13, 15, 16
United States v. Mayville, 955 F.3d 825 (10th
Cir. 2020) ....................................................... 8, 14
United States v. Palmer, 820 F.3d 640 (4th Cir.
2016 ............................................................passim

vii

United States v. Purcell, 236 F.3d 1274 (11th
Cir. 2001) ........................................................... 11
United States v. Simon, 937 F.3d 820 (7th Cir.
2019) .................................................................... 9
Virginia v. Moore, 553 U.S. 164 (2008) ................. 17
STATUTES
KRS § 189.050 .......................................................... 4
OTHER AUTHORITIES
Wayne R. LaFave, Search & Seizure: A
Treatise on the Fourth Amendment (6th ed.
2020) .................................................................. 16
Dep’t of Justice Bureau of Justice Statistics,
Special Report: Contacts Between Police
and the Public (2015), available at
https://www.bjs.gov/content/pub/pdf/cpp15.
pdf ...................................................................... 17
Dep’t of Justice Bureau of Justice Statistics,
Traffic Stops, available at
https://www.bjs.gov/index.cfm?tid=702&ty=
tp#:~:text=The%20most%20common%20re
ason%20for,during%20the%20previous%20
12%20months. ................................................... 17

1

OPINIONS BELOW
The decision of the Supreme Court of Kentucky
(Pet. App. 1a) is reported at 601 S.W.3d 168.
JURISDICTION
The decision of the Supreme Court of Kentucky
was rendered on May 28, 2020. This Court has jurisdiction under 28 U.S.C. § 1257(a).
STATUTORY PROVISIONS INVOLVED
The Fourth Amendment provides in relevant
part: “The right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and seizures, shall not be violated,
and no Warrants shall issue, but upon probable
cause.”
INTRODUCTION
This case squarely presents an important federal
constitutional question on which the lower courts are
openly divided: whether courts may, consistent with
the Fourth Amendment, adopt a categorical rule allowing law enforcement to prolong every traffic stop
by performing a criminal-records check, or whether
the Fourth Amendment instead requires a case-bycase approach allowing such checks only when the
Government offers some evidence that the check actually related to officer safety.
Five courts, including the court below, have employed a categorical rule: they allow law enforcement
to perform a criminal-records check in every traffic
stop on the theory that such checks inherently enhance officer safety. Those courts do not require any

2

evidence that the check at issue actually had anything to do with the safety-enhancement concern.
Law enforcement officers in these five jurisdictions
therefore may prolong any traffic stop to search the
occupants’ criminal records histories regardless of
the circumstances.
By contrast, two courts have adopted a case-bycase approach. Those jurisdictions correctly evaluate
the circumstances of the particular stop to determine
whether concerns of officer safety justified the prolongation of the detention to search the criminal histories of the vehicle’s occupants.
The five courts that have adopted a categorical
rule purport to rely on this Court’s decision in Rodriguez v. United States, 575 U.S. 348 (2015). In Rodriguez, this Court held that, absent reasonable suspicion, law enforcement may not prolong a traffic stop
to take steps that are outside of the officer’s traffic
mission. Id. at 355–57. This Court invalidated a dog
sniff conducted after a traffic stop because it was “a
measure aimed at detecting evidence of ordinary
criminal wrongdoing” and unnecessary to issue the
traffic ticket for the infraction that prompted the
stop. Id. at 355–56.
In so holding, this Court distinguished between
the “ordinary inquiries” that are “authorized incident
to every traffic stop,” see United States v. Palmer,
820 F.3d 640, 655 (4th Cir. 2016) (Wynn, J., concurring), and the precautions “an officer may need to
take . . . in order to complete his mission safely,” Rodriguez, 575 U.S. at 356 (emphasis added). The
Court identified three steps as “ordinary inquires”
permitted in “every traffic stop”: “checking the driver’s license, determining whether there are outstanding warrants against the driver, and inspecting the
automobile’s registration and proof of insurance.”

3

See Rodriguez, 575 U.S. at 355. In the category of
steps that the officer “may need to take” but that are
not “authorized incident to every traffic stop,” the
court placed “certain negligently burdensome precautions in order to complete his mission safely.” See
id. at 356.
The five courts that have adopted a categorical
rule cite Rodriguez for the proposition that a criminal-records check is authorized at every traffic stop.
But that does not comport with the language and
reasoning of Rodriguez. The constitutionality of a
historical criminal-records check was not at issue
there, and the Court did not consider—much less
endorse—the categorical rule adopted below. To the
contrary, Rodriguez excluded historical criminalrecords checks from its list of ordinary measures “authorized at every traffic stop.” See id. at 355. It observed instead that law enforcement “may need” to
take other steps to enhance officer safety, an indication that whether such a check is reasonable depends
on the circumstances of the particular traffic stop at
issue. And the court further established that when a
measure such as a historical criminal records check
is not related to the mission of the traffic stop, it required independent justification under the Fourth
Amendment.
The two courts that have rejected the categorical
rule thus read Rodriguez correctly by evaluating the
particular circumstances to determine the validity of
prolonging the traffic stop in order to conduct a
search of whether the occupants have engaged in
unrelated criminal activity in the past.
This case is an ideal vehicle to resolve the split.
Carlisle raised this issue in his motion to suppress,
in his motion to reconsider the denial of his motion to
suppress, and in his appeal to the Supreme Court of

4

Kentucky. The issue is dispositive here: the Government conceded that the criminal-records check
extended the stop and was not supported by reasonable suspicion of criminal activity. See Gov’t Br. at
14, Carlisle v. Commonwealth, 601 S.W.3d 168
(2020), No. 2018-SC-000680. And the record contains no evidence that officer safety concerns justified the prolonged detention. Certiorari is warranted.
STATEMENT
1. At approximately 3:10 p.m. on September 8,
2017, Officer Brian Powers of the Covington Police
Department initiated a traffic stop on a truck driven
by Christopher Hughes. Petitioner Rodney Carlisle,
Jr., was the lone passenger in the truck. Officer
Powers later explained that he initiated the stop because he believed the truck’s tinted taillights violated KRS § 189.050 and the truck had a loud exhaust.
Officer Powers’s body camera captured audio and
video of the entire traffic stop, except for the two
times Officer Powers muted his microphone. 1 Two
other officers were also present for the stop. Pet.
App. 2a.
Officer Powers explained to Hughes the basis for
the traffic stop, and Hughes replied he and Carlisle
had been in the area to help a friend move and were
driving to the nearby Sunoco station for gas. Officer
Powers collected Hughes’s license and Carlisle’s
Officer Powers’s body camera footage was introduced by the
Government as a supplemental exhibit at the suppression hearing. The parties stipulated to the authenticity of the video.
References to “Vid.” refer to timestamps in the video. A courtesy copy has been submitted to the Court along with this Petition.

1

5

identification card and asked Hughes about his criminal history. Hughes explained he had been arrested
for possessing drug paraphernalia about two decades
before. Pet. App. 2a–3a.
Returning to his car, Officer Powers turned to his
partner and expressed his assessment in a single
word: “Shady.” Vid. 19:13:30–19:13:45. At that
point, Officer Powers’ focus turned from the mission
of completing the traffic stop to investigating criminal activity. He used Hughes’s license and Carlisle’s
identification card to run a computerized check to
“see if they got any prior charges.” Vid. 19:14:10–
19:15:22. Reviewing the results, Officer Powers revealed the reason for conducting the historical criminal records check; he was not concerned for his safety
but instead wished to “see if we can search the car, I
don’t know if he’s gonna allow us to.” Vid. 19:17:00–
19:18:20. Officer Powers then performed another
search on Hughes’s license, and several minutes later determined he was driving with a suspended license. Vid. 19:19:30–19:21:58.
Officer Powers returned to the truck approximately nine minutes after he left it, and informed
Hughes his license was suspended and that “you
can’t leave, I’m not gonna cite you for it, but you
can’t leave. You gotta park your vehicle.” See Vid.
19:23:00–19:23:55. Officer Powers then obtained
Hughes’s consent to search the vehicle. See Vid.
19:23:00–19:23:55.
Hughes, who is white, exited, and an officer patted him down for about three seconds. See Vid.
19:24:09–19:24:12. Carlisle, who is Black, exited,
and an officer patted him down for about 54 seconds.
See Vid. 19:24:50–19:25:44. As Carlisle was instructed to sit on the police car, Officer Powers
searched Hughes’s truck and found two bags of un-

6

used syringes, multiple cell phones, a digital scale, a
cellophane wrapper with what appeared to be drug
residue, and a canister of butane. Vid. 19:26:00–
19:34:15.
Carlisle was handcuffed and searched on the side
of the road, while Hughes sat unrestrained on the
hood of another officer’s car. An officer ordered Carlisle to remove his shoes and pants, recovered fragments of a plastic bag and a small quantity of suspected drugs, and placed him in the squad car while
the officers continued to search his shoes and pants
on the street. See Vid. 19:37:00–19:43:30.
At 3:47 p.m., Officer Powers told a nearby officer
to mute his body camera and then muted his own for
about three minutes. See Vid. 19:47:40–19:50:30. At
3:52, Officer Powers again muted his body camera.
See Vid. 19:52:40. Carlisle was then driven to the
station, almost an hour after Officer Powers initiated
the stop.
2. Carlisle was charged with three counts of firstdegree trafficking in a controlled substance. He
moved to suppress all evidence obtained as a result
of the traffic stop. The trial court denied Carlisle’s
motion, and later denied his motion to reconsider.
See Pet. App. 28a–33a. Carlisle was convicted of the
three counts and sentenced to 20 years in prison.
See Pet. App. 7a.
The Supreme Court of Kentucky affirmed the
denial of Carlisle’s motion to suppress. See Pet. App.
2a. The court observed that “the federal circuits are
split” “[a]s to whether a criminal history check extends the duration of the stop” in violation of the
Fourth Amendment, but the court declined to examine whether Carlisle’s criminal-records check enhanced officer safety in this case. See Pet. App. 14a–
15a. Instead, it quoted extensively from State v. Al-

7

len, 779 S.E.2d 248 (Ga. 2015), in which a sharply
divided Supreme Court of Georgia adopted a categorical rule authorizing a historical criminal-records
check at traffic stops even when the government introduces no evidence that the search enhanced officer
safety. See Pet. App. 16a–20a (citing Allen, 779
S.E.2d at 256). The court summarily held that an
officer can “perform a criminal-records check of a
driver and any passengers” because “[s]uch a task is
an ordinary inquiry related to officer safety.” See
Pet. App. 19a.
REASONS FOR GRANTING THE WRIT
This case meets all of the Court’s criteria for
granting certiorari.
First, the question presented concerns an intractable, acknowledged split on a recurring question
that only this Court can resolve.
Second, the Supreme Court of Kentucky’s approach is incorrect. The court below relied upon Rodriguez to support its categorical rule. But Rodriguez did not involve a criminal-records check,
excluded historical criminal-records checks from its
list of ordinary inquiries permitted at every traffic
stop, and observed only that an officer “may need” to
take other precautions “in order to complete his mission safely.” See 575 U.S. at 356. The categorical
rule also ignores Rodriguez’s admonition that a traffic stop cannot be prolonged beyond the amount of
time required to complete the stop’s mission and
elides the critical distinction between searches directed at the mission of a traffic stop (which are constitutionally permissible, even absent reasonable
suspicion) and searches directed at unrelated criminal activity (which are not).

8

Third, the question presented is vitally important. It concerns the scope of law enforcement’s
authority to detain drivers and passengers during
the more than 19 million traffic stops conducted each
year. The circuit split on that question allows the
Fourth Amendment’s protections to vary from place
to place.
Fourth, this case is an ideal vehicle to resolve the
split.
A. The Question Presented Concerns an Intractable, Acknowledged Circuit Split on
a Recurring Question Only This Court
Can Resolve.
The Supreme Court of Kentucky observed that
“the federal circuits are split” “[a]s to whether a
criminal history check extends the duration of the
stop” in violation of the Fourth Amendment. See Pet.
App. 14a. This Court should resolve that conflict.
1. Five Courts Have Held a Police Officer
Is Entitled to Conduct a Computerized
Criminal History Check During Every
Traffic Stop.
Three federal courts of appeals and the Supreme
Court of Georgia have adopted the same categorical
rule the Supreme Court of Kentucky applied.
The Tenth Circuit interprets the Fourth
Amendment to mean that “an officer may conduct a
criminal-history check as part and parcel of the mission of a traffic stop.” See United States v. Mayville,
955 F.3d 825, 830 n.1 (10th Cir. 2020). In Mayville,
an officer stopped a vehicle for speeding, observed
that the driver seemed impaired, and conducted a

9

criminal-records check. Id. at 827–28. The Tenth
Circuit affirmed the denial of the defendant’s motion
to suppress without considering whether the criminal-record check was in fact related to concerns
about the safety of the officer. Instead, the court
concluded the officer was “entitled to inquire into
Defendant’s criminal record during the traffic stop”
because the check was “justifiable as a ‘negligently
burdensome precaution’ consistent with the important governmental interest in officer safety.” Id.
at 830–31.
Similarly, in the Fourth Circuit, a “police officer
is entitled to inquire into a motorist’s criminal record
after initiating a traffic stop” and need not show the
criminal-records check actually had anything to do
with officer safety. See Palmer, 820 F.3d at 651. As
in Mayville, Palmer affirmed the denial of the defendant’s motion to suppress without considering
whether any facts or circumstances supported concerns about officer safety that a criminal-records
check would address. Id. In a separate opinion,
Judge Wynn declined to endorse the majority’s categorical rule. He nevertheless concurred because the
criminal-records check would have been appropriate
under the case-by-case approach, noting that the
government had introduced evidence showing “the
officer had at least some legitimate concern about
officer safety.” Id. at 655 (Wynn, J., concurring).
The Seventh Circuit has likewise held “that
when police conduct a stop, ‘they are entitled to demand the driver’s identification, of course, and it is
routine to check the driver’s record for active warrants, driving history, and criminal history. Those
checks are done for important reasons, including officer safety.’” United States v. Simon, 937 F.3d 820,
833 (7th Cir. 2019) (quoting Swanigan v. City of Chi-

10

cago, 881 F.3d 577, 586 (7th Cir. 2018) (Hamilton, J.,
concurring in part and dissenting in part)).
Finally, in a sharply divided opinion, the Supreme Court of Georgia affirmed the denial of a motion to suppress on the grounds that permitting a
“computer records check” on a passenger was
“squarely related to an officer’s safety while completing the mission of the traffic stop.” Allen, 779 S.E.2d
at 256. A pointed dissent criticized the majority’s
categorical rule and explained that in its view “the
focus on officer safety is irrelevant due to the absence
of any evidence that officer safety was ever a concern
during this incident.” See id. at 261 (Benham, J.,
dissenting). The dissent concluded that the officer
unlawfully extended the traffic stop because “[n]o
subjective or objective evidence concerning officer
safety was presented at the motion to suppress hearing.” Id.
2. Two Courts Have Held a Police Officer
Is Not Entitled to Conduct a Computerized Criminal History Check During
a Traffic Stop Unless There Is Evidence the Check Advances Officer
Safety.
The Ninth and Eleventh Circuits have rejected a
categorical rule allowing law enforcement to perform
a criminal-records check during a traffic stop. Instead, these courts apply a case-by-case approach,
allowing criminal-records checks only when there is
evidence that the check actually relates to officer
safety.
The Ninth Circuit applied this case-by-case approach in United States v. Evans, in which it affirmed the decision granting the defendant’s motion

11

to suppress because the criminal-records check “in no
way advanced officer safety.” 786 F.3d 779, 787 (9th
Cir. 2015). In Evans, a deputy sheriff received intelligence that the defendant’s car was carrying between five and 10 pounds of methamphetamine and
initiated a traffic stop after observing the defendant’s
car “mak[e] a lane change that cause[d] the vehicle
behind it to apply its brakes.” Id. at 782. The deputy sheriff questioned the vehicle’s occupants, informed the driver “he was not going to write a ticket,” performed a “records check,” and then “requested
an ex-felon registration check” after learning the
driver “had a prior felony arrest record.” Id. at 782–
83. Applying this Court’s decision in Rodriguez, the
court held that the criminal-records check was not
justified by an interest in officer safety because the
officer “would have been safer had he let [the driver]
go.” Id. at 787. “The ex-felon registration check, unlike the vehicle records or warrants checks, was
wholly unrelated to [the officer’s] ‘mission’ of ‘ensuring that vehicles on the road are operated safely and
responsibly.’” Id. (quoting Rodriguez, 575 U.S. at
355). “Rather, it was ‘a measure aimed at detect[ing]
evidence of ordinary criminal wrongdoing.’” Id.
(quoting Rodriguez, 575 U.S. at 355).
The Eleventh Circuit has also adopted a case-bycase approach. It expressly rejected a categorical
rule permitting criminal records checks as part of
every traffic stop. “[A]s in most issues relating to the
constitutionality of a traffic stop,” the court reasoned,
“such bright line rules are inadvisable. The Supreme
Court has long held that the touchstone of the
Fourth Amendment is reasonableness. Reasonableness is measured by examining the totality of the
circumstances.” United States v. Purcell, 236 F.3d
1274, 1278–79 (11th Cir. 2001). Although it upheld

12

the constitutionality of the stop in that case, the
court recognized that “[u]nder some circumstances a
criminal record request might lengthen a traffic stop
beyond what is reasonable in a particular case.” Id.
at 1279. 2
3. The Conflict Will Not Resolve Without
a Decision From This Court.
The split is entrenched and unlikely to resolve
without action by this Court. Two state courts of last
resort and at least five federal courts of appeals have
addressed the issue, and no court has indicated it is
reconsidering its approach. Two of the five courts to
adopt the categorical rule have done so over the objection of another member of that court. See Palmer,
820 F.3d at 655 (Wynn, J., concurring) (observing
that “the Supreme Court omitted criminal background checks from its list of ‘ordinary inquiries’ authorized incident to every traffic stop” but finding
that “in this case, the specific circumstances of the
stop indicate the officer had at least some legitimate
The Third Circuit could be considered another court on this
side of the split; it appears to have rejected the categorical rule
as applied to questions about a defendant’s criminal history
(rather than a computerized criminal-records check). See United States v. Clark, 902 F.3d 404, 410 (3d Cir. 2018). In Clark, a
police officer initiated a traffic stop, performed a computerized
criminal-records check, and questioned the driver about his
criminal history. Id. at 406. The district court granted the
driver’s motion to suppress, and the Third Circuit affirmed. Id.
at 410 (“Thus, considering objectively the circumstances and
facts coloring the interaction, we must determine whether Bradley’s criminal history questioning, ostensibly aimed at verifying
Roberts’ authority to drive, was tied to the traffic stop’s mission,
or instead whether the traffic stop must reasonably be seen as
having been completed before that questioning began.”) (emphases added).
2

13

concern for his own safety”); Allen, 779 S.E.2d at 261
(Benham, J., dissenting) (“And in this case in particular, the focus on officer safety is irrelevant due to
the absence of any evidence that officer safety was
ever a concern during this incident. No subjective or
objective evidence concerning officer safety was presented at the motion to suppress hearing.”). As a
result, there is no realistic prospect that the conflict
will resolve without this Court’s intervention. Further review is therefore warranted.3
The need for this Court’s resolution of the split is
particularly compelling. Because the Supreme Court
of Georgia and the Eleventh Circuit have decided the
question differently, the Fourth Amendment may
apply differently to traffic stops in Georgia depending on whether the state of Georgia or the United
States files the charge. Allowing the decision below
to go unreviewed would allow charging decisions by
state and federal prosecutors to alter the Fourth
Amendment’s protections. Whether a search or seizure is reasonable under the Fourth Amendment
should not turn on which sovereign chooses to prosecute a crime.
B. The Decision Below Is Wrong.
The Supreme Court of Kentucky’s categorical
rule permitting a historical criminal-records check
Rodriguez has also caused confusion in the lower courts regarding the constitutionality of questions posed to drivers at
traffic stops. Compare Clark, 902 F.3d at 410–11 (officer violated Fourth Amendment by asking driver questions about his
criminal history), with United States v. Hill, 852 F.3d 377, 382
(4th Cir. 2017) (“[A]n officer may question the occupants of a
car on unrelated topics without impermissibly expanding the
scope of a traffic stop.”) (citing Arizona v. Johnson, 555 U.S.
323, 333 (2009)).
3

14

during a traffic stop misinterprets the Fourth
Amendment. This Court should review the decision
before other courts follow that erroneous ruling.
The decisions endorsing a categorical rule purport to apply Rodriguez. See, e.g., Pet. App. 15a–19a;
Allen, 779 S.E.2d at 256; Mayville, 955 F.3d at 830;
Palmer, 820 F.3d at 651. But the constitutionality of
a criminal-records check was not at issue in Rodriguez, which did not even consider—much less endorse—the categorical rule adopted below. Indeed,
Justice Ginsburg’s careful opinion for the Court in
Rodriguez forecloses the categorical rule. Rodriguez
distinguished between two types of measures in the
traffic-stop context: on the one hand, those “ordinary
inquiries” that are “authorized incident to every traffic stop;” and on the other hand, those measures that
an officer “may need” to conduct “in order to complete his mission safely.” Rodriguez, 575 U.S. at
355–56. The first, always-permitted category included “checking the driver’s license, determining whether there are outstanding warrants against the driver,
and inspecting the automobile’s registration and
proof of insurance.” See id. at 355. All of those
measures are squarely within the mission of the traffic stop itself. Rodriguez “omitted criminal background checks from [that] list,” indicating that such
checks for historical criminal activity are not authorized at every traffic stop. See Palmer, 820 F.3d at
655 (Wynn, J., concurring). Instead, such searches
fall within the second category of measures that may
or may not be permissible depending on whether
they are appropriate in the circumstances to address
concerns about officer safety. The categorical rule
adopted in the decision below collapses this distinction and misconstrues Rodriguez.

15

Moreover, a categorical rule always allowing a
criminal-records check squarely conflicts with Rodriguez’s admonition that a traffic stop prolonged beyond “the amount of time reasonably required to
complete the stop’s mission” is “unlawful.” See 575
U.S. at 357 (quoting Illinois v. Caballes, 543 U.S.
405, 407 (2005)). Where law enforcement conducts a
criminal-records check that is not actually related to
officer safety, the stop has been prolonged unreasonably in violation of the Fourth Amendment. “There
is no de minimis exception to this rule.” Clark, 902
F.3d at 410 (citing Rodriguez, 575 U.S. at 356); see
also Hill, 852 F.3d at 381 (“The Supreme Court recently has clarified that extending a stop even a de
minimis length of time violates the Fourth Amendment.”) (citing Rodriguez, 575 U.S. at 356).
The categorical rule applied below also elides the
distinction between a permissible inquiry related to
completing the traffic stop and an impermissible inquiry directed at investigating unrelated criminal
conduct. It is axiomatic that “[o]n-scene investigation into other crimes [] detours from [the traffic
stop] mission. So too do safety precautions [taken in
order] to facilitate such detours.” Clark, 902 F.3d at
410 (quoting Rodriguez, 575 U.S. at 356). The categorical rule endorsed by the Supreme Court of Kentucky bypasses that critical distinction and permits
law enforcement to conduct drug investigations under the pretext of officer safety. Cf. Hill, 852 F.3d at
385 (Davis, J., dissenting) (“This was no mere traffic
stop. Rather, it was a narcotics and firearms investigation, undertaken in the absence of reasonable
suspicion (to say nothing of probable cause) that a
narcotics or firearms violation was taking place.”); 4
Wayne R. LaFave, Search & Seizure: A Treatise on
the Fourth Amendment § 9.3(c) (6th ed. 2020) [here-

16

inafter Search & Seizure] (“[I]n this ‘war on drugs’
via traffic stops the criminal history check serves to
identify drivers who deserve (at least in the officer’s
mind) more intense scrutiny.”). For example, allowing unnecessary criminal-records checks gives the
police an opportunity to “string[] along the stop until
a drug dog arrive[s],” see State v. Salcedo, 935
N.W.2d 572, 580 (Iowa 2019), so that the traffic stop
turns into an unrelated criminal investigation. And
it gives the police additional grounds—no matter
how marginal—to cite in finding reasonable suspicion justifying further investigation. See United
States v. Dion, 859 F.3d 114, 127 (1st Cir. 2017) (observing that law enforcement can consider a defendant’s prior criminal misdeeds in determining whether reasonable suspicion justifies further detention).4
Finally, a categorical rule is particularly inappropriate because it may in fact make traffic stops
less safe. It is undisputed that traffic stops can be
“especially fraught with danger to police officers.”
Rodriguez, 575 U.S. at 356. At the same time, an
officer conducting a criminal-records check “may well
be told that the police department believes [the driver] committed [a violent crime]. At that point, an
officer’s normal caution will give way immediately to
extreme caution, putting [the participants] at a much
higher risk that any movement might be misinterpreted as dangerous,” even assuming “lawful and
reasonable actions by both.” See Swanigan, 881 F.3d
at 586 (Hamilton, J., concurring in part and dissentFor this reason, the leading Fourth Amendment treatise has
supported prohibiting criminal history checks under the Fourth
Amendment absent reasonable suspicion of present criminal
activity or evidence the check is actually needed for officer safety. See, e.g., Search & Seizure § 9.3(c) (stating criminal history
checks should be prohibited absent these two exceptions).

4

17

ing in part). A case-by-case approach, by contrast,
ensures that traffic stops will be prolonged only
where necessary to enhance officer safety.
C. The Decision Below Concerns an Important and Recurring Question.
Whether a criminal history check extends the
duration of a traffic stop in violation of the Fourth
Amendment is an important and recurring question
that warrants this Court’s review.
“The most common reason for contact with the
police is being a driver in a traffic stop.” Dep’t of
Justice Bureau of Justice Statistics, Traffic Stops,
available
at
https://www.bjs.gov/index.cfm?tid=702&ty=tp#:~:text
=The%20most%20common%20reason%20for,during
%20the%20previous%2012%20months. In 2015, law
enforcement initiated more than 19 million traffic
stops in the United States. See Dep’t of Justice Bureau of Justice Statistics, Special Report: Contacts
Between Police and the Public 3 (2015), available at
https://www.bjs.gov/content/pub/pdf/cpp15.pdf.
Allowing this split to persist means that for years to
come the meaning of the Fourth Amendment will
vary from place to place in precisely the context in
which the public’s Fourth Amendment rights are
most often implicated.
Particularly on such an important, recurring issue, the “Fourth Amendment’s meaning” should not
“vary from place to place.” See Virginia v. Moore,
553 U.S. 164, 172 (2008). Because of the split at issue here, such variation is inevitable. In the Ninth
and Eleventh Circuits (except in Georgia state court),
a criminal-records check at a traffic stop must actually relate to officer safety to be permissible. In the

18

Fourth, Seventh, and Tenth Circuits, and in state
courts in Kentucky and Georgia, every traffic stop
can include a criminal-records check even when
there is no concern about officer safety. The Fourth
Amendment’s protection should not turn on whether
a traffic stop occurs on the Georgia side or South
Carolina side of I-95.
Nor should it turn on whether a case is litigated
in federal or state court. But it does. In Georgia,
state courts apply a categorical rule that the nearby
federal courts do not. That disagreement makes it
impossible for police in Georgia to know what rules
will be applied to their actions. Recognizing that
such uncertainty is intolerable, this Court should
grant certiorari to resolve the conflict.
D. This Case Presents an Ideal Vehicle.
This case squarely and cleanly presents the issue
that has divided the lower courts. It is therefore an
ideal vehicle for resolving the question presented.
Carlisle has raised the question presented
throughout the proceedings below. He raised it to
the trial court and the Supreme Court of Kentucky,
arguing before both that “checking the criminal histories of the occupants . . . prolonged the traffic stop
beyond the time reasonably required to complete his
traffic mission.” See Def. Mot. to Reconsider at 6,
Commonwealth v. Carlisle, No. 17-CR-1312 (Kenton
Cir. Ct. Sept. 12, 2018); Def. Br. at 13, Commonwealth v. Carlisle, No. 17-CR-1312 (Kenton Cir. Ct.
Jul. 24, 2018). And the Supreme Court of Kentucky
squarely decided the issue, holding that law enforcement “may . . . perform a criminal-records check
of a driver and any passengers” during a traffic stop

19

because the check is inherently “related to officer
safety.” See Pet. App. 19a.
The Supreme Court of Kentucky did not consider
whether Carlisle’s criminal-records check actually
enhanced officer safety. In so doing, it adopted a
categorical rule allowing such checks at traffic stops.
Had the court employed the case-by-case approach
adopted by the Ninth and Eleventh Circuits, it would
have reached a different result. The Government
conceded that the criminal-records check extended
the stop and was not supported by reasonable suspicion of criminal activity. See Gov’t Br. at 14, Carlisle
v. Commonwealth, 601 S.W.3d 168 (2020), No. 2018SC-000680. The record also contains no evidence
that the criminal-records check was based on anything other that an interest in investigating crime
unrelated to completing the traffic stop. Indeed, the
evidence demonstrates the opposite: the officers decided to search the occupants’ criminal histories because they considered them “shady” and hoped to
find a basis to obtain consent to search the car. See
Vid. 19:13:30–19:15:22.
Finally, the record in this case is well developed
and the facts are not disputed.

20

CONCLUSION
For the reasons set forth above, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
DAVID A. O’NEIL
COUNSEL OF RECORD
CHRISTOPHER CARTER
DEBEVOISE & PLIMPTON LLP
801 Pennsylvania Ave. N.W.
Washington, D.C. 20004
(202) 383-8000
daoneil@debevoise.com
MATTHEW SPECHT
DEBEVOISE & PLIMPTON LLP
919 Third Avenue
New York, NY 10022
ROY ALYETTE DURHAM II
KENTUCKY DEPARTMENT OF
PUBLIC ADVOCACY
5 Mill Creek Park, Section 100
Frankfort, KY, 40601
(502) 564-8006
October 2020

APPENDIX

1a
Rodney CARLISLE, Jr., Appellant
v.
COMMONWEALTH of Kentucky, Appellee
2018-SC-000680-MR
Supreme Court of Kentucky.
May 28, 2020
___________
ON APPEAL FROM KENTON CIRCUIT
COURT, HONORABLE GREGORY M. BARTLETT,
JUDGE, NO. 17-CR-01312
COUNSEL FOR APPELLANT: Roy
Durham II, Assistant Public Advocate.

Alyette

COUNSEL FOR APPELLEE: Daniel Jay Cameron, Attorney General of KenTUCKY, James Daryl
Havey, Assistant Attorney General.
OPINION OF THE COURT BY JUSTICE KELLER
Rodney Carlisle, Jr., appeals as a matter of right
from a circuit court judgment convicting him of three
counts of first-degree trafficking in a controlled substance for which he was sentenced to a total of twenty years’ imprisonment. Carlisle argues the trial
court should have suppressed evidence that was
found on his person during a warrantless search be-

2a
cause it was the result of illegal searches and seizures. Finding no error in the trial court's refusal to
suppress this evidence, we affirm the judgment.
I. BACKGROUND
A. The Initial Traffic Stop
In September 2017, at approximately 3:10 PM,1
Officer Brian Powers of the Covington Police Department stopped a truck for improper equipment,
namely, tinted taillights and a loud exhaust. The
truck was driven by Christopher Hughes; Carlisle
was the only passenger. Two other officers, Sergeant
S. Mangus and Officer Kyle Shepard, arrived on the
scene to assist Officer Powers.
The traffic stop was captured on Officer Powers's
body cam. The video shows that Officer Powers first
approached the driver's side window and explained
why he had stopped the truck. He then asked where
Hughes and Carlisle were coming from, where
Hughes lived (Newport), where the two were headed,
where exactly Hughes was staying in Newport, and
why they were so far from Newport. Hughes explained that he was living with someone in Newport
but was helping someone move nearby, and he was
headed to Sunoco for gas. Officer Powers then collected Hughes's license and, while Hughes searched
for proof of insurance, also collected Carlisle's identification card. He also asked Hughes if he had ever
The body camera recording indicates that the stop occurred at
approximately 19:10:40, or 7:10 p.m. However, based on testimony at the suppression hearing and the time indicated on the
uniform citation, the stop occurred at 3:10 p.m. We have adjusted the relevant timestamps to track this time.

1

3a
been arrested, and Hughes responded yes, for possession of drug paraphernalia in 2001.
Officer Powers returned to his cruiser, immediately commenting “shady” to his own passenger. (It
is unclear who this passenger is or why he was riding
along.) He noted that the computer was running
slowly. He also commented that he would “see if
they got any prior charges.” As he attempted to run
Hughes's license number, he commented to his passenger, “We'll see if we can search the car, I don't
know if he's gonna allow us to.” He had trouble running Hughes's license number because the license
was damaged and some of the numbers were illegible, so he contacted dispatch for assistance. Dispatch eventually responded that Hughes's license
was suspended.
Officer Powers returned to the driver's side window of the truck. He immediately returned the IDs
and proof of insurance to Hughes. After handing
back the IDs, Officer Powers explained that Hughes's
license was suspended and that the license itself was
so damaged that he would need to get a new one. At
approximately 3:23:49, Officer Powers stated to
Hughes, “So you can't leave, I'm not gonna cite you
for it, but you can't leave. You gotta park your vehicle.” Hughes responded, “Can I park it right here at
Sunoco?” To this question, Officer Powers responded, “Yeah, that's fine, just park it out of the way,
okay. Is there anything illegal in the vehicle at all?”
This last question was asked at approximately
3:23:55. Hughes responded in the negative. Officer
Powers asked, “No weapons, drugs, nothing like
that?” Hughes responded that the only thing he had
was a pocket knife. At 3:23:58, Officer Powers asked
Hughes, “Mind if I take a look?” Hughes responded

4a
“no” at approximately 3:23:59, thereby consenting to
a search of the truck.
B. The Frisk and Detention of Carlisle
Hughes immediately exited the vehicle and was
quickly frisked by Officer Powers. Officer Powers
then directed Hughes to move toward the back of the
truck where his supervisor was standing, “just wherever you want to stand with him.” Carlisle was also
instructed to exit the vehicle, at which point he was
thoroughly frisked by Officer Shepard. The officer
found a pocket knife, which he handed to Officer
Powers. The officer also asked Carlisle how much
cash he had on him. When the frisk was complete,
Officer Powers directed Carlisle to “walk back over
with my supervisor,” at which point Carlisle walked
over to one of the police cruisers parked behind the
truck. The body cam shows that another officer
pointed to the cruiser, at which point Carlisle sat
down on the front of the cruiser. It is not clear if
Carlisle was told that he had to sit there or only that
he could sit there.
C. The Search of the Truck
As Officer Powers began his search of the truck,
he commented to one of the other officers that the
passenger (Carlisle) was a convicted felon with a prior gun charge, and both men had prior drug charges.
Officer Powers then focused his attention on a black
drawstring backpack located in the passenger seat,
resting against the middle console, while another
officer began searching the driver's side. Officer
Powers initially pulled two packages of unused sy-

5a
ringes from the bag. At this point, he commented to
the other officer that “it was under him so....” The
other officer asked if he was referencing the passenger, to which Officer Powers responded, “Yeah.” As
he continued to search the bag, Officer Powers also
found several cell phones. When the other officer
mentioned that he would start looking through the
seat cushions, Officer Powers commented, “It's gonna
be on him.” The other officer asked if the men had
been searched yet, and Officer Powers responded
that he had only patted them down, but “I think we
got enough now to search.” He also commented that
“[Officer] Shepard patted this guy down, he's got a
ton of money in his pocket.”
Ultimately, the other officer found a digital scale
in the driver's side door, and Officer Powers pulled
from the bag an iPad, several cell phones, and a canister of butane, in addition to the syringes and various personal items like cologne, Tylenol, and an energy drink. In reference to the butane, Officer
Powers commented, “Probably shooting meth.” The
other officer also asked what the butane was for, to
which Officer Powers responded, “I've only ever seen
that with meth.”
Officer Powers then pulled the passenger seat up
and picked up a plastic cellophane wrapper from the
floorboard. Though it is not clear from his body cam
footage, Officer Powers testified at the suppression
hearing that there was a white residue on the wrapper. In the video, he stated that there was “at one
point something in” the wrapper. In reference to the
residue, he also stated, “I don't think there's gonna
be enough to do anything with.” He also stated, “If
anything, it's gonna be on him, I'll check him.”

6a
D. The Search of Carlisle's Person
Officer Powers then called dispatch to run the
iPad's serial number to check if it was stolen. After
doing that, he walked over to Carlisle. Officer Shepard, who had been standing with the men, handcuffed Carlisle, explaining that Carlisle had been
acting “super nervous” and was “tensing up,” so the
officer did not “want to take any chances.”
Officer Powers then searched Carlisle's person.
He first checked the left pocket of his jeans and discovered a large amount of cash. He then asked Carlisle when he had last taken meth and whether he
had any meth on him. Carlisle responded in the
negative. Officer Powers then moved to Carlisle's
right side and pulled from his waistband a small
piece of plastic, apparently the top of a plastic baggie. Officer Powers finished searching Carlisle's
pockets and found “suspected marijuana.” He then
attempted to find the rest of the plastic baggie and
ultimately had Carlisle step of out his shoes and out
of his jeans. Carlisle wore shorts underneath his
jeans. The rest of the plastic baggie, which contained
a suspected narcotic, was found after Carlisle
stepped out of his jeans.
Carlisle was read
his Miranda rights, and the officers then continued
to search him, shaking out his shorts and checking
his socks and shoes.
After Carlisle was placed in the back of the police
cruiser, the officers quickly searched Hughes and,
finding nothing, allowed him to leave. Carlisle was
ultimately transported to booking, at which point the
body cam footage ended.

7a
E. Motion to Suppress
Carlisle moved to suppress all evidence from the
traffic stop, and a hearing was held in which only
Officer Powers testified. The body cam footage was
also submitted as an exhibit. The trial court ultimately denied the motion. The case proceeded to
trial, and a jury found Carlisle guilty of three counts
of first-degree trafficking in a controlled substance.
Carlisle was sentenced to a total of twenty years
of imprisonment, and this appeal followed.
II. ANALYSIS
Carlisle argues that the trial court erred in denying his motion to suppress because (1) Officer Powers
illegally extended the traffic stop beyond its original
purpose; (2) the continued detention of Carlisle after
the traffic stop concluded constitutes an illegal seizure; and (3) the officers did not have probable cause
to search Carlisle's person. We address each argument in turn.
A. Prolonged Stop
Carlisle first argues that Officer Powers illegally
extended the duration of the traffic stop beyond its
original lawful purpose, thereby illegally seizing Carlisle. In his brief to this Court, Carlisle focuses on
the questions that Officer Powers asked when he
first approached the truck (e.g., where do you live,
where are you going) and his search of their criminal
histories.
On this issue, the parties both cite to Rodriguez v.
United States, 575 U.S. 348, 135 S.Ct. 1609, 191

8a
L.Ed.2d 492 (2015). In that case, Rodriguez's car
swerved onto the shoulder of the road, in violation of
a law prohibiting driving on the shoulder. An officer
stopped the car and ultimately wrote a written warning ticket. The officer explained the warning to Rodriguez and handed back to Rodriguez and his passenger the documents obtained from them. The
officer later testified that “I got all the reason[s] for
the stop out of the way[,] ... took care of all the business.” Nevertheless, the officer asked for permission
to walk his dog around the vehicle. Rodriguez did
not consent. The officer then instructed Rodriguez to
exit the vehicle, and Rodriquez complied. The officer's dog conducted a sniff test and alerted to drugs.
Approximately seven or eight minutes had elapsed
from the time the officer issued the warning to the
time the dog alerted to the presence of drugs.
The Supreme Court of the United States held
that a police stop exceeding the time needed to handle the matter for which the stop was made violates
the Constitution's shield against unreasonable seizures. A seizure justified only by a police-observed
traffic violation, therefore, “become[s] unlawful if it
is prolonged beyond the time reasonably required to
complete th[e] mission” of issuing a ticket for the violation. Id. at 350–51, 135 S.Ct. 1609 (quoting Illinois
v. Caballes, 543 U.S. 405, 407, 125 S.Ct. 834, 160
L.Ed.2d 842 (2005)). However, “[a]n officer ... may
conduct certain unrelated checks during an otherwise lawful traffic stop,” but “he may not do so in a
way that prolongs the stop, absent the reasonable
suspicion ordinarily demanded to justify detaining
an individual.” Id. at 355, 135 S.Ct. 1609.
In reaching this conclusion, the Court affirmed its
previous rulings in Illinois v. Caballes and Arizona v.

9a
Johnson, 555 U.S. 323, 129 S.Ct. 781, 172 L.Ed.2d
694 (2009). In Caballes, as noted above, the Supreme Court recognized that “[a] seizure justified
only by a police-observed traffic violation ... ‘become[s] unlawful if it is prolonged beyond the time
reasonably required to complete th[e] mission’ of issuing a ticket for the violation.” Rodriguez, 575 U.S.
at 350–51, 135 S.Ct. 1609 (quoting Caballes, 543
U.S. at 407, 125 S.Ct. 834). In Johnson, the Court
reaffirmed that “[t]he seizure remains lawful only ‘so
long as [unrelated] inquiries do not measurably extend the duration of the stop.’” Id. at 355, 135 S.Ct.
1609 (quoting Johnson, 555 U.S. at 333, 129 S.Ct.
781). However, in Rodriguez, the Court clarified
that, while an officer “may conduct certain unrelated
checks” during a traffic stop, “he may not do so in a
way that prolongs the stop, absent the reasonable
suspicion ordinarily demanded to justify detaining
an individual.” Id. In other words, “[t]he critical
question ... is not whether the dog sniff occurs before
or after the officer issues a ticket ... but whether conducting the sniff prolongs—i.e., adds time to—the
stop.” Id. at 357, 135 S.Ct. 1609 (internal quotation
marks omitted).
The
Kentucky
Supreme
Court
applied Rodriguez in Davis v. Commonwealth, 484
S.W.3d 288 (Ky. 2016). In that case, an officer observed Davis's car swerving across the center line
and pulled him over. When he approached the car,
the officer smelled alcohol and saw an open beer can
in the console. Davis performed and passed two field
sobriety tests, and a preliminary breath test registered no presence of alcohol. The officer then asked
for permission to search the vehicle, but Davis did
not consent. Nevertheless, over Davis's objection,

10a
the officer's canine performed a sniff test and alerted
to drugs. This Court held that the fruits of that
search should be suppressed.
The Court first
acknowledged
that,
under Rodriguez,
“any prolonging of the stop beyond its original purpose is unreasonable and unjustified; there is no ‘de
minimis exception’ to the rule that a traffic stop cannot be prolonged for reasons unrelated to the purpose
of the stop.” Id. at 294. Applying that principle to
the Davis case, the Court explained,
The only reason for the sniff search was to discover illegal drugs in [Davis's] car, which adds nothing to indicate if the driver is under the influence
and is clearly beyond the purpose of the original
DUI stop. The evidence unequivocally established, and the Commonwealth agrees, that [the
officer] had concluded his field sobriety investigation. It is obvious that his purpose then shifted to
a new and different purpose. With no articulable
suspicion to authorize an extended detention to
search for drugs, [the officer] prolonged the seizure and conducted the search in violation
of Rodriguez and [Davis's] Fourth Amendment
protections.
Id.
In Davis, the lawful purpose of the stop had concluded. However, it is important to note that the key
inquiry is not whether the stop is extended beyond
its natural conclusion; rather, the Court must consider whether the officer's conduct (e.g., asking unrelated questions or conducting a sniff test) adds any
amount of time to the stop. As the Supreme Court

11a
explained in Rodriguez, “[t]he critical question ... is
not whether the dog sniff occurs before or after the
officer issues a ticket ... but whether conducting the
sniff prolongs—i.e., adds time to—the stop.” 575
U.S. at 357, 135 S.Ct. 1609 (internal quotation
marks omitted); see also Commonwealth v. Smith,
542 S.W.3d 276, 282 (Ky. 2018) (“Obviously, the
search added time to the stop because it was conducted before the purpose of the stop was addressed.”).
With these principles in mind, it is helpful to
break this analysis into distinct parts: First, was the
traffic stop ongoing or had it concluded? Second, if
the stop was ongoing, did Officer Powers inquire into
matters unrelated to the stop's mission? Third, if the
officer inquired into unrelated matters, did his inquiries prolong the stop?
i. The lawful traffic stop had not concluded at
the time consent was obtained to search the
truck.
Carlisle argues that Officer Powers extended the
duration of the otherwise lawful traffic stop without
the reasonable articulable suspicion necessary for
that continued detention. As a threshold matter,
then, the Court must determine if the lawful mission
of the traffic stop concluded and if so, when.
On this point, the Supreme Court of the United
States has explained, “Normally, the stop ends when
the police have no further need to control the scene,
and inform the driver and passengers they are free to
leave.” Johnson, 555 U.S. at 333, 129 S.Ct.
781 (citation omitted). In Rodriguez, the Court also
stated that “[a]uthority for the seizure ends when

12a
tasks tied to the traffic infraction are—or reasonably
should have been—completed.” 575 U.S. at 354, 135
S.Ct. 1609 (citation omitted). In addition, in Nunn v.
Commonwealth, 461 S.W.3d 741 (Ky. 2015), this
Court noted that the original purpose of a traffic stop
had not concluded when the officer decided to impound the vehicle and waited for a tow truck to arrive. The fact that the officer and driver “were still
waiting for the tow truck signifie[d] that the business
for which the stop was justified was ongoing.” Id. at
747.
Here, Officer Powers stopped Hughes's truck for
faulty equipment, then learned that Hughes's license
was suspended. Though he chose not to cite Hughes
for these infractions, he needed to maintain control
of the scene to ensure that Hughes did not continue
to drive a vehicle with faulty equipment and with a
suspended license. In other words, he needed to
maintain control of the situation until the vehicle
was safely off the road and Hughes (and Carlisle) left
the scene on foot or by other means. His continued
control over the situation is demonstrated by his instruction to Hughes that he could not leave and
would have to park his car, and Hughes's request for
permission to park the truck at the Sunoco
lot. See Johnson, 555 U.S. at 333–34, 129 S.Ct.
781 (“Nothing occurred in this case that would have
conveyed to Johnson that, prior to the frisk, the traffic stop had ended or that he was otherwise free ‘to
depart without police permission.’” (citation omitted)). Under these circumstances, the lawful mission
of the traffic stop had not concluded.

13a
ii. The officer did not inquire into matters unrelated to the stop's mission.
If the lawful traffic stop had concluded, then Officer Powers's continued detention of Hughes and
Carlisle would be an illegal seizure, absent some independent basis for that seizure. However, because
the traffic stop had not concluded, the Court must
now consider whether it was prolonged beyond the
time reasonably necessary to complete the mission of
the stop. As the Supreme Court of the United States
has explained, a police officer “may conduct certain
unrelated checks during an otherwise lawful traffic
stop. But ... he may not do so in a way that prolongs
the stop, absent the reasonable suspicion ordinarily
demanded to justify detaining an individual.” Rodriguez, 575 U.S. at 355, 135 S.Ct. 1609.
Thus, in this case, the Court must first determine
whether the officer inquired into matters unrelated
to the purpose of the traffic stop.
In Rodriguez, the Supreme Court identified a
number of tasks that it characterized as “ordinary
inquiries
incident
to
[the
traffic]
stop.” Id. (quoting Caballes, 543 U.S. at 408, 125
S.Ct. 834) (internal quotation marks omitted). These
inquiries include “checking the driver's license, determining whether there are outstanding warrants
against the driver, and inspecting the automobile's
registration and proof of insurance.” Id. (citations
omitted). The Supreme Court explained, “These
checks serve the same objective as enforcement of
the traffic code: ensuring that vehicles on the road
are operated safely and responsibly. A dog sniff, by
contrast, is a measure aimed at ‘detect[ing] evidence
of ordinary criminal wrongdoing.’” Id. (citations

14a
omitted). In other words, unrelated tasks are those
“aimed at detecting criminal activity more generally.” United States v. Green, 897 F.3d 173, 179 (3d
Cir. 2018) (interpreting Rodriguez).
In the present case, Carlisle focuses on the questions initially asked to Hughes, including where he
lived and where the men were going and why. However, “[g]enerally, questions about travel plans are
ordinary inquiries incident to a traffic stop.” United
States v. Campbell, 912 F.3d 1340, 1354 (11th Cir.
2019) (citations omitted). For example, in Campbell,
an officer pulled over a vehicle with a malfunctioning
taillight and proceeded to inquire into the driver's
travel plans. The Eleventh Circuit first cited to various federal cases holding that questions related to a
driver's travel plans are within the scope of a traffic
stop. Id. The Eleventh Circuit then explained that,
in that case, the questions were also relevant to the
specific traffic violation; if the driver was traveling
for a long distance, there was a greater chance that
his taillight would malfunction while he was on the
road. Id. Similarly, in the present case, the questions about Hughes's travel plans would not only be
an “ordinary inquiry” within the scope of the stop,
they would also be relevant to the traffic violation for
faulty equipment.
Carlisle also focuses on the officer's review of the
men's criminal histories. As to whether a criminal
history check extends the duration of a stop, the federal circuits are split. The Ninth Circuit, for example, has held that an “ex-felon registration check”
was “wholly unrelated” to the traffic stop's mission of
ensuring that vehicles on the road are operated safely and responsibly. United States v. Evans, 786 F.3d
779, 786 (9th Cir. 2015) (citations omitted). On the

15a
other hand, the Fourth Circuit has held that “an officer reasonably may search a computer database
during a traffic stop to determine an individual's prior contact with local law enforcement, just as an officer may engage in the indisputably proper action of
searching computer databases for an individual's
outstanding warrants.” United States v. Hill, 852
F.3d 377, 383 (4th Cir. 2017) (citations omitted); see
also United States v. Palmer, 820 F.3d 640, 649 (4th
Cir. 2016) (“An officer is entitled to conduct safetyrelated checks that do not bear directly on the reasons for the stop, such as requesting a driver's license and vehicle registration, or checking for criminal records and outstanding arrest warrants.”
(citing Rodriguez, 575 U.S. at 354–55, 135 S.Ct.
1609)).
Like these federal cases, Kentucky case law fails
to provide a clear answer to the question of whether
or not a criminal records check prolongs an otherwise
lawful traffic stop. In Moberly v. Commonwealth,
551 S.W.3d 26 (Ky. 2018), the Court considered the
question, but did not quite answer it. In that case,
an officer pulled Moberly over after running his license plate number and discovering that the car's
registration had been cancelled. The officer obtained
Moberly's license and returned to his cruiser to write
a citation; however, “[h]e also spent about five
minutes accessing a jail website and a police database to find out more information about [Moberly].” Id. at 28. Moberly later argued that the officer's
“legitimate mission—issuing traffic citations for the
vehicle registration and insurance violations—was
impermissibly extended without good cause when
[the officer] diverted his attention from writing the
traffic citation and spent several minutes searching

16a
online databases for information pertaining to
[Moberly].” Id. at 30. This Court acknowledged
“that Rodriguez identifies as one of the routine tasks
associated with a proper traffic stop a check for any
outstanding warrants that may be pending against
the driver.” Id. (citing Rodriguez, 575 U.S. at 355,
135 S.Ct. 1609). In Moberly, however, it was not
clear what “jail website” or “police database” the officer accessed, and he made no reference to outstanding warrants. “Nevertheless,” the Court explained,
“we will indulge in the presumption that at least a
portion of the officer's time spent on the online sites
can be justified as a check for outstanding warrants,
although the Commonwealth does not assert as
much. Faced with a silent record, we can presume no
more.” Id.
On this point, with no Kentucky case law on
point, we find the analysis of the Georgia Supreme
Court to be persuasive. That court addressed this
very issue two years after Rodriguez was rendered.
In State v. Allen, 298 Ga. 1, 779 S.E.2d 248 (2015), a
police officer initiated a traffic stop and, about eight
minutes into the stop, radioed for a computer records
check on both the driver and passenger. Id. at 251.
While the officer was awaiting a response, he conducted a dog sniff of the car and then conducted a
search of the car based on the dog's positive
alert. Id. The men moved to suppress the drug evidence found during the search on the grounds that
the stop was unreasonably prolonged by the records
check on the passenger. Id.
The court acknowledged that the records check
was not related to determining whether to issue a
traffic ticket to the driver, nor was there any indication that the passenger had committed a traffic vio-

17a
lation himself. The records check was also not justified on roadway-safety grounds, as the passenger
would not be driving away from the stop. Id. at 255.
Thus, the court sought to determine whether the records check was “an officer safety measure that is ordinarily permitted as part of the mission of a traffic
stop.” Id.
The court ultimately concluded that running a
computer records check is “squarely related to the
officer's safety while completing the mission of the
traffic stop.” Id. at 256. The court explained,
In allowing police officers, as a safety measure, to
require passengers as well as drivers to get out of
a stopped car, the Supreme Court explained,
“[w]hile there is not the same basis for ordering
the passengers out of the car as there is for ordering the driver out, the additional intrusion on the
passenger is minimal.” Maryland v. Wilson, 519
U.S. at 414–415, 117 S.Ct. 882. Similarly, while
checking a passenger's identification may not always serve the combined roadway safety and officer safety objectives of checking the
driver's
identification, which is clearly permissible, see Rodriguez, 135 S.Ct. at 1614–1615, it is a
minimal additional intrusion that serves the
weighty interest in officer safety. Indeed, many
people would find providing their identification to
a police officer for a computer records check far
less intrusive than being ordered out of the car to
stand on the shoulder of a busy highway or on the
side of a street in their neighborhood. See United
States v. Soriano–Jarquin, 492 F.3d 495, 500 (4th
Cir. 2007) (“If an officer may ‘as a matter of
course’ and in the interest of personal safety order

18a
a passenger physically to exit the vehicle, he may
surely take the minimally intrusive step of requesting passenger identification.” (citation omitted)).
Id.
Finally, the Georgia Supreme Court noted that it
had addressed this issue even before Rodriguez in its
own case of the same name, Rodriguez v. State, 295
Ga. 362, 761 S.E.2d 19 (2014):
Equally important, inquiring about the identities
of [driver] Rodriguez and [passenger] Williams,
inquiring about weapons in the car, verifying
their identities, and checking for warrants are activities reasonably directed toward officer safety.
Generally speaking, when an officer lawfully
stops and detains an individual for a brief investigation[,] ... the officer is entitled to take reasonable steps to make the scene safe for his investigation. As the United States Supreme Court has
acknowledged, investigative traffic stops “are especially fraught with danger to police officers.”
Accordingly, the officer may take reasonable steps
to ascertain whether the persons with whom he is
dealing might be dangerous. To this end, courts
throughout the country have held that an officer
generally may reasonably inquire about the identities of persons detained at the scene of a traffic
stop and take reasonable steps to quickly verify
their identities and to check their criminal histories and for warrants.

19a
Allen, 779 S.E.2d at 257 (quoting Rodriguez, 761
S.E.2d at 27–28).
Accordingly, the Allen court held that the records
check on the passenger “was an ordinary officer safety measure incident to the mission of the traffic stop,
and it therefore could permissibly extend the stop for
a reasonable amount of time.” Id. at 258.
We find the reasoning of the Georgia Supreme
Court compelling. “The Supreme Court has long held
that ensuring officers’ personal safety is of critical
importance in the conduct of traffic stops.” United
States v. Soriano-Jarquin, 492 F.3d 495, 500 (4th
Cir. 2007). For that reason, officers performing a
traffic stop are “authorized to take such steps as
[are] reasonably necessary to protect their personal
safety and to maintain their status quo.” United
States v. Hensley, 469 U.S. 221, 235, 105 S.Ct. 675,
83 L.Ed.2d 604 (1985).
As such, we hold that an officer reasonably may
ask for the identification and perform a criminalrecords check of a driver and any passengers during
an otherwise lawful traffic stop to determine an individual's prior contact with law enforcement. Such a
task is an ordinary inquiry related to officer safety.
Accordingly, Officer Powers's collecting of Carlisle's
identification and subsequent checking of his criminal history was not an unrelated inquiry that prolonged the traffic stop.
In sum, we hold that the “travel plan” questions
initially asked to Hughes were appropriate and related to the traffic stop's mission, and the inquiry
into the men's criminal histories was also appropri-

20a
ate.2 Each of these inquiries was related to the traffic stop's lawful purpose. As a result, we need not
consider whether these inquiries prolonged the duration of the traffic stop by any length of time.
B. Detention of Carlisle During Search of
Truck
Carlisle next argues that, even if the stop was not
unlawfully prolonged, he was illegally seized when
he was ordered to exit the vehicle, patted down, told
to stand over with another officer near the police
cruisers, and then ordered to sit down on the police
cruiser while the officers searched the truck. (As
noted above, it is not clear that he was ordered to sit
on the cruiser.)
It is well settled that a police officer may, as a
matter of course, order the driver of a lawfullystopped vehicle to exit the vehicle. In Pennsylvania
v. Mimms, 434 U.S. 106, 98 S.Ct. 330, 54 L.Ed.2d
331 (1977), a driver, Mimms, was stopped for driving
with an expired license plate. The officer asked
Mimms to step out of the vehicle to produce his license and other documents, at which point the officer
noticed a bulge in Mimms's jacket. Believing that
the bulge could be a weapon, the officer frisked
Mimms and recovered a gun. Mimms later moved to

One could conceivably argue that the questions asked to
Hughes prior to the search of the truck—namely, the question
of whether anything illegal was in the truck, like weapons,
drugs, or similar items—were unrelated to the traffic stop's
purpose and improperly prolonged the stop. However, that issue
was not argued to the Court, and we therefore decline to address it.
2

21a
suppress the gun, arguing that the officer illegally
seized him by ordering him out of the car.
In determining whether the officer's order to get
out of the car was reasonable, the Supreme Court
balanced the public interest in officer safety against
the individual's right to be free from arbitrary police
interference. Id. at 109, 98 S.Ct. 330. In weighing
the public's interest in officer safety, the Court noted
the state's interest in establishing a face-to-face confrontation with the driver during a traffic stop,
thereby diminishing the possibility that the driver
can make unobserved movements and decreasing the
risk of harm to the officer. Id. at 109–10, 98 S.Ct.
330. Against this interest, the Court weighed the
intrusion into the driver's personal liberty occasioned
by ordering him out of the vehicle. The Court observed that, because the driver's vehicle is already
stopped, the additional intrusion of having him step
out of the car is “de minimis.” Id. at 111, 98 S.Ct.
330. The Court ultimately concluded that such an
intrusion, which is “at most a mere inconvenience,
cannot prevail when balanced against legitimate
concerns for the officer's safety.” Id. Accordingly,
the Court held that “once a motor vehicle has been
lawfully detained for a traffic violation, the police
officers may order the driver to get out of the vehicle
without violating the Fourth Amendment's proscription of unreasonable seizures.” Id.
Later, in Maryland v. Wilson, 519 U.S. 408, 117
S.Ct. 882, 137 L.Ed.2d 41 (1997), the Court extended
its holding in Mimms to passengers of lawfully
stopped vehicles, using the same balancing test between public interest and personal freedom. Id. at
411, 117 S.Ct. 882. The Court explained that “the
same weighty interest in officer safety is present re-

22a
gardless of whether the occupant of the stopped car
is a driver or a passenger,” as “traffic stops may be
dangerous encounters.” Id. at 413, 117 S.Ct. 882.
On the personal-liberty side, the Court observed that
“the case for passengers is in one sense stronger than
that for the driver” because while “[t]here is probable
cause to believe that the driver has committed a minor traffic offense, ... there is no such reason to stop
or detain the passengers.” Id. Nevertheless, the
Court explained that “as a practical matter, the passengers are already stopped by virtue of the stop of
the vehicle. The only change that will result from
ordering them out of the car is that they will be outside of, rather than inside of, the stopped car.” Id.at
413–14, 117 S.Ct. 882.
Moreover, the Court observed that placing the
passenger outside of the car would deny him access
to any possible weapon that might be concealed inside the car. Id. at 414, 117 S.Ct. 882. Furthermore,
“the possibility of a violent encounter stems not from
the ordinary reaction of a motorist stopped for a
speeding violation, but from the fact that evidence of
a more serious crime might be uncovered during the
stop.” Id. A passenger's motivation “to employ violence to prevent apprehension of such a crime is every bit as great as that of the driver.” Id. The Court
therefore held “that an officer making a traffic stop
may order passengers to get out of the car pending
completion of the stop.” Id. at 415, 117 S.Ct. 882.
Notably, the Wilson court did not address the
state's argument that an officer may order a passenger out of a vehicle and forcibly detain a passenger
for the entire duration of the stop. However, applying the balancing test of Mimms and Wilson, we believe that the officer's safety concerns outweigh the

23a
passenger's personal liberty interests, thereby allowing an officer to detain a passenger during a traffic
stop. For example, a departing passenger is likely to
distract the officer's focus, thereby increasing the
risk of harm to that officer. Thus, officers conducting
a lawful search of a vehicle surely have an interest in
securing passengers from wandering about the scene.
The passenger, on the other hand, has already been
seized by virtue of the traffic stop, so the continued
intrusion upon the passenger is minimal. In this
case, for example, Carlisle had already been stopped
and detained by police while the ordinary inquiries of
the traffic stop were conducted, and the detention
outside the vehicle lasted less than ten minutes. As
such, the intrusion into Carlisle's personal liberty in
this case was minimal. We therefore conclude that
the officers’ interest in safety in this case outweighed
the intrusion into Carlisle's personal liberty, and his
detention during the search of the truck was reasonable.
As for the officer's authority to frisk Carlisle for
weapons, it is true that an officer must have reasonable articulable suspicion that the individual is
armed prior to conducting a pat down under Terry v.
Ohio, 392 U.S. 1, 88 S.Ct. 1868, 20 L.Ed.2d 889
(1968). In this case, Officer Powers knew that Carlisle had a prior gun charge and Hughes had commented that he had a pocket knife. We need not address whether these sparse facts provided the
necessary reasonable suspicion, however, because no
evidence was obtained from the pat down.

24a
C. Search of Carlisle's Person
Lastly, Carlisle argues that the evidence discovered during the search of the truck failed to provide
the probable cause necessary to search his person.
We disagree and hold that the officers did have probable cause to search Carlisle's person.
This Court has previously explained, “In absence
of consent, the police may not conduct a warrantless
search or seizure without both probable cause and
exigent circumstances.” Guzman v. Commonwealth,
375 S.W.3d 805, 808 (Ky. 2012) (citing Kirk v. Louisiana, 536 U.S. 635, 638, 122 S.Ct. 2458, 153 L.Ed.2d
599 (2002)). The test for probable cause is whether,
under the totality of the circumstances, a fair probability exists that contraband or evidence of a crime
will be found in a particular place. Moore v. Commonwealth, 159 S.W.3d 325, 329 (Ky. 2005) (citation
omitted). This Court has further explained that
probable cause is a flexible, common-sense standard. It merely requires that the facts avail able
to the officer would “warrant a man of reasonable
caution in the belief,” that certain items may be
contraband or stolen property or useful as evidence of a crime; it does not demand any showing
that such a belief be correct or more likely true
than false. A “practical, nontechnical” probability
that incriminating evidence is involved is all that
is required.
Williams v. Commonwealth, 147 S.W.3d 1, 7–8 (Ky.
2004).

25a
The exigent circumstances doctrine, on the other
hand, “arises when, considering the totality of the
circumstances, an officer reasonably finds that sufficient exigent circumstances exist,” thereby requiring
“swift action to prevent imminent danger to life or
serious damage to property, and action to prevent
the imminent destruction of evidence.” Bishop v.
Commonwealth, 237 S.W.3d 567, 569 (Ky. App.
2007) (citations omitted) (internal quotation marks
omitted). In narcotics cases, the exigent circumstances doctrine “is particularly compelling,” as “contraband and records can be easily and quickly destroyed while a search is progressing.” United States
v. Young, 909 F.2d 442, 446 (11th Cir. 1990) (citation
omitted).
In the present case, under the totality of the circumstances, the various items recovered in the
search contributed probable cause to search both
Hughes and Carlisle. The officers’ search of the
truck revealed a digital scale, a bottle of butane, several cell phones, two packages of syringes, and a cellophane wrapper covered in white residue. Officer
Powers testified at the suppression hearing that
these items lead him to believe that the two men
would have more paraphernalia on their persons. As
he was searching the truck, he can also be heard
commenting that he had “only ever seen” butane
“with meth.” In addition, during the frisk of Carlisle,
Officer Shepard apparently felt a substantial amount
of cash on Carlisle's person. Under the totality of
these circumstances, there was probable cause to
believe that Hughes and Carlisle held more contraband on their persons. See generally Burton v.
Commonwealth, 2013–SC–000476–MR, 2014 WL
4160221 (Ky. Aug. 21, 2014) (holding that officer had

26a
probable cause to search entire vehicle once officer
discovered ammonium nitrate in passenger compartment, combined with digital scales in plain view,
and officer's knowledge of vehicle's occupants’ prior
drug charges); Manns v. Commonwealth, 2015–CA–
001375–MR, 2016 WL 6819746 (Ky. App. Nov. 18,
2016)(holding that, under the totality of the circumstances, digital scales in plain view provided probable cause). Because there was a high likelihood that
that contraband included narcotics, which could easily and quickly be destroyed, exigent circumstances
also existed.
Notably, probable cause to search the driver of a
vehicle does not automatically justify a search of a
passenger in the same car.
This is because
[p]assengers in an automobile are not generally perceived to have the kind of control over the contents of
an automobile as do drivers. Consequently, “some
additional substantive nexus between the passenger
and the criminal conduct must appear to exist in order for an officer to have probable cause to either
search or arrest a passenger.” Morton v. Commonwealth, 232 S.W.3d 566, 570 (Ky. App.
2007) (quoting State v. Wallace, 372 Md. 137, 812
A.2d 291, 304 (2002)). In this case, however, the officers discovered much of the evidence (the syringes,
butane canister, and cell phones) in a backpack sitting in the passenger seat where Carlisle had been
seated, and the wrapper with white residue was
found behind the passenger seat. Furthermore, Officer Shepard had already discovered that Carlisle
carried a substantial amount of cash on his person.
The location of the evidence in the truck and the
cash on Carlisle's person provided the necessary

27a
“substantive nexus” between Carlisle and the possible criminal conduct.
We therefore hold that the probable cause and
exigent circumstances requirements were satisfied,
thereby warranting a search of Hughes's person and,
given the nexus between Carlisle and the evidence,
Carlisle's person.
III. CONCLUSION
For the reasons set forth above, we affirm the
judgment of the Kenton Circuit Court.
All
sitting. Minton,
C.J.; Hughes,
Lambert, VanMeter, and Wright, JJ., concur. Nickell, J.,
concurs in result only by separate opinion.
NICKELL, J., CONCURRING IN RESULT:
I concur in result only. I remain troubled by Officer Powers’ request to search because I believe the
purpose of the traffic stop was completed relative to
faulty equipment and driving on a suspended license.
Officer Powers’ request to search was unrelated to
the original mission of the traffic stop. Further, securing the vehicle in the Sunoco parking lot could
have been accomplished without a search for drugs,
weapons, or evidence of other crimes—and without
prolonging the seizure absent reasonable and articulable suspicion of criminal activity. However, as noted by the majority, Carlisle did not raise the issue.
As such, I am constrained to agree with the majority's resolution.

28a
COMMONWEALTH OF KENTUCKY
SIXTEENTH JUDICIAL CIRCUIT
KENTON CIRCUIT COURT
THIRD DIVISION
CASE NO.: 17-CR-1312
COMMONWEALTH OF KENTUCKY
PLAINTIFF
vs.
RODNEY A. CARLISLE, JR.
DEFENDANT
ORDER
**********************
This matter is before the Court on the Defendant’s Motion to Reconsider the Order denying the
Motion to Suppress. Having reviewed the record
herein, including the Defendant’s Motion and case
authority and the Response of the Commonwealth;
and the Court being otherwise sufficiently advised;
IT IS HEARBY ORDERED that the Defendant’s Motion to Reconsider is DENIED.
Dated this 12th day of September, 2018.
/s/ Gregory Bartlett
_________________________________
JUDGE GREGORY M. BARTLETT
KENTON CIRCUIT COURT
THIRD DIVISION

29a
COMMONWEALTH OF KENTUCKY
SIXTEENTH JUDICIAL CIRCUIT
KENTON CIRCUIT COURT
THIRD DIVISION
CASE NO.: 17-CR-1312
COMMONWEALTH OF KENTUCKY
PLAINTIFF
vs.
RODNEY A. CARLISLE, JR.
DEFENDANT
ORDER
**********************
This matter is before the Court on the Motion to
Suppress filed by Defendant, Rodney Carlisle, on
February 6, 2018. In his motion, Defendant seeks to
suppress the evidence obtained as a result of a warrantless search conducted by Officer Powers. The
Commonwealth charges that, on September 8, 2017
Defendant was trafficking cocaine, heroin, and
methamphetamine in Covington, KY. These charges
are a result of a warrantless search conducted after a
traffic stop made by Officer Powers.
While on patrol, Officer Powers observed a vehicle
being operated with insufficient tail lights, in violation of KRS § 189.050. The tail lights were so heavily tinted they could barely be seen, and one light appeared to not be working at all. The vehicle was also

30a
overly loud which led to Officer Powers pulling over
the vehicle.
Once the vehicle was pulled over, Officer Powers
had a short conversation with the driver and asked
for both the driver’s and the passenger’s (Defendant)
licenses. After running each license through his
computer, the officer learned that the driver’s license
was suspended. The officer then informed the driver
that he would not arrest him, but that he could not
allow the driver to continue driving the vehicle. The
officer informed the driver that he could park the
vehicle in a nearby parking lot but could not drive
the vehicle any further.
Officer Powers then asked the driver for consent
to search the vehicle, and the driver willingly consented. Both the driver and Defendant were then
asked to exit the vehicle and patted down for weapons. After finding nothing on either of them, the officer conducted the search of the vehicle. Whole
searching the vehicle, the officer found a black drawstring backpack. Without knowing who the backpack belonged to, the officer searched the bag. In the
bag, the officer found two packs of unused syringes, a
bottle of butane, and several cell phones. The officer
also found a digital scale in the driver side door compartment and a cellophane wrapper containing the
residue of a white substance behind the passenger
seat of the vehicle.
After finding these items, the officer then conducted a search of Defendant, Officer Powers found
some marijuana in the pocket of Defendant and a
piece of a cellophane wrapper in his waistband. Having only found a small piece of the wrapper, the officer continued to search Defendant’s pants, hoping
to find the remainder of the wrapper. Once the of-

31a
ficer noticed that Defendant was wearing shorts underneath his pants, the officer instructed Defendant
to take off his pants. When Defendant removed his
pants, a small amount of a white substance, wrapped
in cellophane, fell out of his shorts. At this point Defendant was placed under arrest.
Defendant states that the evidence obtained as a
result of this warrantless search conducted on him
should be suppressed. Defendant then cites five cases, Brooks v. Commonwealth, 388 S.W.3d 131 (Ky.
Ct. App. 2012), Terry v. Ohio, 392 U.S. 1 (1968), Bell
v. Wolfish, 441 U.S. 520 (1979), Davis v. Commonwealth, 484 S.W.3d 288 (Ky. 2016), and Rodriguez v.
United States, 135 S.Ct. 1609 (2015), with little to no
explanation as to how each case applies to this case.
The Commonwealth argues that the officer had
probable cause to search Defendant and thus the
search was proper. However, the Commonwealth
has chosen not to provide any written response or
cite to any cases.
There is no need to discuss Brooks, as the cellophane wrapper containing the white substance
which was found behind the passenger seat of the
vehicle gave the officer probable cause to search both
the driver and the Defendant, regardless of what was
found in the backpack. And Terry analysis would
also be moot, because there was no evidence found as
a result of the “Terry pat down” which was conducted. Finally, both Davis and Rodriguez deal with the
prolonging of a traffic stop so that a canine sniff
search may be conducted. Each case holds that prolonging a stop so that a search may be conducted
without any reasonable suspicion to do so is unconstitutional. However, when consent to search is given, there is no reasonable suspicion requirement.

32a
“Where a motorist is initially stopped for a valid
purpose and subsequently gives consent to a search
of his vehicle, the voluntariness of his consent is the
only issue to consider for purposes of the Fourth
Amendment – and not whether the continued detention was justified by reasonable suspicion.” Commonwealth v. Erikson, 132 S.W.3d 884, 889 (Ky. Ct.
App. 2004).
The voluntariness of the driver’s consent to
search is an issue that has not been raised nor argued. Based on the video feed of the officer’s body
cam, there is no evidence of coercion by the officer
and the driver seemed to be of sound mind at the
time he consented to the search. Thus, the driver
voluntarily consented to the search and there is no
issue as to whether the traffic stop was prolonged by
the officer.
In Wolfish, the Court provided factors to be considered while conducting a balancing test to determine whether a search is reasonable or not. Those
factors are “the scope of the particular intrusion, the
manner in which it is conducted, the justification for
initiating it, and the place in which it is conducted.”
Id. The scope of the intrusion in this case was minimal as only the Defendant’s pockets and waistband
were searched. The manner in which the search was
conducted was proper the Defendant was detained
and standing on his own as his pockets and waistband were searched. The search was justified by the
finding of the cellophane wrapper containing a white
substance in the vehicle. The search was conducted
outside on the street where the initial traffic stop
was conducted. Defendant argues that conducting
the search on the street with his pants pulled down
violated his right to privacy as anyone walking by

33a
could see that his pants were down. However, Defendant was still wearing his shorts and no part of
his private areas were exposed at any time. Under
the Wolfish test, as cited by Defendant, the search
was proper.
Accordingly, IT IS HEARBY ORDERED that
the Defendant’s Motion to Suppress is DENIED.
Dated this 24th day of July, 2018.
/s/ Gregory Bartlett
__________________________________
GREGORY M. BARTLETT, JUDGE
KENTON CIRCUIT COURT
THIRD DIVISION

